BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Brief in Opposition for
the Respondents Massachusetts Department of Labor
Relations and Commonwealth Employment Relations
Board in 19-51, Ben Branch, et al. v. Massachusetts
Department of Labor Relations, et al., were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 22nd day of
November, 2019:
Bruce N. Cameron
National Right to Work
Legal Defense Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
(757) 352-4522
bnc@nrtw.org

Counsel for Petitioners
Jeffrey William Burritt
National Education Association
120116th Street, NW
Washington, DC 20036
(202) 822-7231
jburritt@nea.org

Counsel for Respondents Massachusetts Society of
Professors I MTAI NEA; Hanover Teachers
Association/ MTAI NEA; Professional Staff
Union/ MTAI NEA

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Maura Healey
Attorney General for the
Commonwealth of Massachusetts
Timothy J. Casey*
David C. Kravitz
Cassandra Bolanos
Assistant Attorneys General
One Ashburton Place
18th Floor
Boston, Massachusetts 02108
timothy .casey@mass.gov
(617) 963-2043
*Counsel of Record
T. Jane Gabriel
Chief Counsel
Massachusetts Department of Labor Relations
19 Staniford Street
Boston, Massachusetts 02114
j ane.gabriel@mass.gov
(617) 626-7139
Counsel for Respondents Massachusetts Department of
Labor Relations and Commonwealth Employment
Relations Board

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 22, 2019.

Julie A. Kershner
Becker Gallagher Le a P ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
,'Jotary Public, State of Ohio
My Commission Expires
February 14, 2023

